No.
IN THE

Supreme Court of tje Hmteb States
JOSEPH FINDLERIV,
Petitioner,
v.
CHRISTOPHER WRAY, et al„
Respondents.
PROOF OF SERVICE
I, Joseph Findler IV, do swear or declare, that on October 27, 2020, as
required by Rule 29 of the Rules of the Supreme Court of the United States, all
parties required to be served with copies of the Petition for a Writ of Certiorari, for
the above entitled case, have been served by delivery to a third-party commercial
carrier for delivery within 3 calendar days, as I have delivered a package containing
three copies of the Petition for a Writ of Certiorari, for the above entitled case, to a
third-party commercial carrier for delivery within 3 calendar days, properly
addressed, to each of the following: Solicitor General of the United States, Room
5616, Department of Justice, 950 Pennsylvania Ave., N. W., Washington, DC 205300001 and Respondents Christopher Wray and Timothy Slater’s counsel, Jennifer L.
Newby, Assistant United States Attorney, United States Attorney's Office, 211 West
Fort Street, Suite 2001, Detroit, MI 48226, Phone Number: (313) 226-0295.
I declare under penalty of perjury thay [gToregoihg is true and correct.
Executed on October 27, 2020.
\
\
\
\

JOSEPH FINDL/ER IV
46036 Michigan Ave. #118
Canton, MI 48188
(513) 212-3548
jayfindler@gmail.com
Petitioner in Pro Se

%

